District Court Of Appeal Of The State Of Florida
Fourth District

CHAVALIER DWAYNE JOHNSON, SR.,
Appellant,
v.
DR. NICHOLS, et al.,
Appellees.
No. 4D20-684
[February 4, 2021]
Appeal from the Circuit Court for the Nineteenth Judicial Circuit,
Okeechobee County; Laurie E. Buchanan, Judge; L.T. Case No.
472019CA000308.
Chavalier Dwayne Johnson, Sr., Florida City, pro se appellant.
Ashley Moody, Attorney General, and Lindsey L. Miller-Hailey,
Assistant Attorney General, Tallahassee, for appellee Florida Department
of Corrections.
No brief filed for appellee Florida Department of Corrections.
Per Curiam.

Affirmed.
Warner, May and Artau, JJ., concur.
*

*

*

Not final until disposition of timely filed motion for rehearing.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
March 15, 2021

CASE NO.: 4D20-0684
L.T. No.:
472019CA000308
CHAVALIER DWAYNE JOHNSON, SR.
Appellant / Petitioner(s)

v.

DR. NICHOLS, et al.
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that appellant's February 17, 2021 motion for rehearing is denied. Further,
ORDERED that appellant’s March 4, 2021 “motion request for a reason why appellant’s
motion request to forward a copy of the answer brief that was due on or before 20 days was
denied as moot” is denied.

Served:
cc:

Kenneth S. Steely

Lindsey Lee Miller-Hailey

Chavalier Dwayne Johnson, Sr.

kr

cl
LONN WEISSBLUM, Clerk

•v
FOURTH
DISTRICT

&

Cj

«&

£
©

Fourth District Court of Appeal

T

S'

£ Op

\o

MANDATE
from
DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT
This cause having been brought to the Court by appeal, and after due
consideration the Court having issued its opinion;
YOU ARE HEREBY COMMANDED that such further proceedings be had in said
cause as may be in accordance with the opinion of this Court, and with the rules of
procedure and laws of the State of Florida.
WITNESS the Honorable Spencer D. Levine, Chief Judge of the District Court of
Appeal of the State of Florida, Fourth District, and seal of the said Court at West Palm
Beach, Florida on this day.

CASE NO.:

April 01, 2021
20-0684

COUNTY OF ORIGIN:

Okeechobee

T.C. CASE NO.:

472019CA000308

DATE:

STYLE:

CHAVALIER DWAYNE JOHNSON, SR.

v.

DR. NICHOLS, et al.

LONN WEISSBLUMj Clerk
Fourth District Court of Appeal

Served:
cc:
kr

Kenneth S. Steely
Clerk Okeechobee

Lindsey Lee Miller-Hailey

Chavalier Dwayne Johnson, Sr.

Filing #

E-Filed 01/10/2020 03:22:39 PM

IN THE CIRCUIT COURT OF THE NINETEENTH JUDICIAL CIRCUIT
IN AND FOR OKEECHOBEE COUNTY, FLORIDA

Case No. 2019-CA-308
CHAVALIER DWAYNE
JOHNSON, et al., 1
Plaintiff,
v.
DR. NICHOLS, ct al.,
Defendants.
<\

ORDER OF DISMISSAL WITH LEAVE TO AMEND\^

c

This case is before the court on the piaintiffVNovember 4,^2019,\complaint, and
pursuant to § 57.085, Florida 67<3?«/t^2039^The court hasrcy^wed'.thecomplaiiit, the file,
\x

f^\\

and being otherwise fully(adviscdtirivthe premisesrfinds andxorders as follows.
Becaus’e the plaintiff is an indigent prisoner as'dcfincd in Section 57.085, Florida

c <a\\V

iV"

Statutes (2019), the court must review^is complaint to determine whether it is legally sufficient
to state a cause of action (for ^vhicli the'eourt has jurisdiction and may grant relief, and must
dismiss all or part of a claim that fails to state a claim for which relief may be granted.
§57.085(6), Florida'Statutes (2019). In addition, the plaintiff must state a cause of action that
contains a short and plain statement of the ultimate facts showing that he is entitled to relief.
Fla. R. Civ. P. 1.110(b).
The plaintiff states that his complaint is an action for medical malpractice. However,

i

Although Mr. Chevalier has named other plaintiffs in this action, he is the only person who has signed the
complaint. Further, he is the only one who has claimed to be indigent.
1

Electronically Filed Okeechobee Case # 19000308CAAXMX 01/10/2020 03:22:39 PM

other than general conclusory statements about being subjected to “grossly incompetent and
inadequate medical care by prison officials who failed to respond to a known medical problem,”
as well as denial of access to outside care2 following a 2015 stabbing incident, the plaintiff
alleges no specific facts upon which he bases his malpractice claim. He fails to identify any act
or omission on the part of any of the defendants. Although he plaintiff makes vague references
to sexual battery, he makes no factual allegations regarding any sexual battery.
If a complaint is “so vague, indefinite and ambiguous as to whollyYail to state a cause of
action, it is subject to dismissal.” Frisch v. Kelly, 137 So.2d 252f253 (Fla\lstJDCA 1962). The
V'
plaintiff’s complaint is so vague, indefinite, and ambiguou^t^t^wholly fails to state a cause of
action, and the plaintiff has failed to allege any^facts^thafwould establishlmy^use of action for
which the court may grant relief. §^57^085(6J(a)\i/orida 57Q/«/ejT\hu^^court finds that this

d\

action must be dismissed fof failure to state a claim fofw,hich rei'iefmay be granted.

s\( o 'I V*

1 , ^/

Further, thc.pjaintiff does not appear4o.be an ^attorney licensed to practice law in this
\
state. Tjh^^fie^annoTbriSg an actio'njpn^behW
of othervpersons. Forman v. State Dept, of
\
Children &Families, 956/So?2dC7<v477 (Fla. 4th DCA 2007); Torrey v. Leesburg Regional
Medical Cen/e/\^769*So>2dJ040^(Fla. 2000). Therefore, the plaintiff may not bring this action
\

^

/

on behalf of his wifeKehya M. Johnson, or his children Chavalier Dwayne Johnson, Jr., Quency
T. Johnson, Karah N. Johnson and Mary K. Ford.
It is therefore ORDERED AND ADJUDGED that the plaintiffs complaint is hereby
DISMISSED WITHOUT PREJUDICE. The plaintiff will have 30 days from the date of this

2 The plaintiff makes the conclusory statement that “prisons rarely provide the complete range of necessary services
within their walls” but fails to identify which services, if any, were not provided to him that would have required
outside care.
2

order to file an amended complaint that is legally sufficient. If the plaintiff does not file a legally
sufficient complaint within 30 days, this case will be dismissed with prejudice without further
notice.
DONE AND ORDERED in chambers on January 10, 2020, at Okeechobee in
Okeechobee County, Florida.
Electronically Sifned by Circuit Jialje Lataie E. Bachman
2: Hem. Jan 10.2020

LAURIE E. BUCHANAN
CIRCUIT JUDGE.
Copies to:
Chavalier Dwayne Johnson
DC # 700939
Dade Correctional Institution
19000 S.W. 377th Street
Florida City, FL 33034-6409
Kenneth S. Steely, General Gounselv"
Florida Department^ Corrections
501 South Calhoun Street^"”"
Tallahass8c).FLM239|,-2500
court fjlines(&.FDC.myflorida.con

3

